   REVIEW OF SBA'S ACCOUNTING OF FY 2009 DRUG 

CONTROL FUNDS AND PERFORMANCE SUMMARY REPORT 





                 Report Number: 10-09 

             Date Issued: February 26,2010 

                                                                                                   1




              U.S. Small Business Administration
              Office Inspector General                 Memorandum
     To : 	   Antonio Doss                                             Date:   February 26,2010
              Office of Small Business Development Centers
              lSI original signed
  From: 	     Debra S. Ritt 

              Assistant Inspector General for Auditing 


Subject: 	    Review of SBA's Accounting ofDrug Control Funds and Performance Summary
              Report

              This report presents the results of our review of the Small Business
              Administration's (SBA) Accounting ofDrug Control Funds and Performance
              Summary Report for the year ended September 30, 2009, as required by 21 U.S.C
              § 1704(d). As directed by the Office of National Drug Control Policy (ONDCP)
              Circular, Drug Control Accounting, 1 agencies are required annually to provide a
              detailed accounting of all funds expended on National Drug Control Program
              activities and the results associated with those activities. However, when drug­
              related obligations are less than $50 million and a detailed accounting would
              constitute an unreasonable burden, ONDCP permits agencies to submit an
              alternative report, as long as it is accompanied by Agency and Office of Inspector
              General statements that full compliance with the circular would constitute an
              unreasonable burden.

              Because SBA's fiscal year (FY) 2009 drug-related obligations were less than
              $50 million, SBA submitted an alternative report for FY 2009. We (1) assessed
              whether providing a detailed accounting of funds expended on National Drug
              Control Program activities would constitute an unreasonable burden, and (2)
              reviewed SBA' s report and related management assertions to determine the
              reliability of management assertions made in SBA's Annual Accounting ofDrug
              Control Funds Report.

              We reviewed accounting entries for the Drug-Free Work Place (DFWP) made by
              the Chief Financial Officer, FY 2009 DFWP grant documents, and grantee self­
              reported performance data used to support SBA's Accounting ofDrug Control

              I   Issued May 1, 2007.
                                                                                    2


Funds and Performance Summary Report. We wish to note that the FY 2009
performance data reported by SBA is based on information submitted by grantees
that was not verified by SBA to determine whether it was accurate, complete and
unbiased. However, the Agency properly disclosed that it relied on the honesty
and integrity of grantees to ensure that performance data was accurate, complete
and unbiased in presentation and substance. We conducted our review in
accordance with attestation standards established by the American Institute of
Certified Public Accountants, and applicable standards contained in Government
Auditing Standards, issued by the Comptroller General of the United States.
Because a review is substantially less in scope than an examination, and does not
provide an adequate basis from which to express an opinion on SBA's Accounting
ofDrug Control Funds and Performance Summary Report, accordingly, we do not
express such an opinion.

Based on our review, we believe that full compliance with the ONDCP circular
would constitute an unreasonable burden for SBA. Also, nothing came to our
attention that caused us to believe that SBA' s alternative report for the year ended
September 30, 2009 is not presented, in all material respects, in conformity with
ONDCP's Circular, or that management's assertions are not fairly stated, in all
material respects, based on the criteria set forth in ONDCP's Circular, Drug
Control Accounting.

A copy of SBA's Accounting ofDrug Control Funds and Performance Summary
Report is attached. Should you or your staff have any questions, please contact
Jeffrey R. Brindle, Director, Information Technology and Financial Management
Group at (202) 205- [FOIA ex. 2]

Attachment
                                                                        3


               U.S. SMALL. BUSINESS AOMINISTRATION
                      WASHINCTON,   D.C.   20.416




                                                         FEB 2 5 2010

Mr. Jon Rice
Associate Director for Performance and Budget
Office of National Drug Control Policy
750 17th St., NW
5th Floor
Washington, DC 20503

Dear Mr. Rice:

In accordance with the Office of National Drug Control Policy's
Drug Control Accounting Circular, the Small Business
Administration submits its Accounting of FY 2009 Drug Control
Funds and Performance Summary Report with the accompanying IG
authentication.

If you have any additional questions or comments, please call me directly.

Sincerely yours,



[FOIA ex. 6]
Antomo Doss
Director, Office of Small Business Development Centers

Enclosure
                                                                                                                4




I.          PERFORMANCE INFORMATION

MEASURE 1 : Number of Small Businesses Educated

       Table 11
        FY 2007 Actual       FY 2008 Actual        FY 2009 Target         FY 2009 Actual


        2,731                2,280                1,450                  1,550


(a) Describe the measure. This measure reflects the number of small businesses
    that were educated by a Drug Free Workplace grantee. A purpose of the
    program is to educate as many small businesses as possible to make them
    aware of the benefits of implementing a drug free workplace program for their
    business. If a business implements a DFWP program, it is believed that there
    will be a decrease in absenteeism, workplace accidents, tardiness, damaged or
    stolen property and insurance premiums. It is also believed that productivity
    and morale will increase. The information is collected directly from the
    grantees. The grantees input their data into a database created just for this
    program.

(b) In 2007, the program started to collect outcome information on the following
    metrics from businesses that had a change in:
     Employee Behaviors                                      Business Costs
     Improved:                                               Decreased:
     Absenteeism                                             Insurance Premiums
     Tardiness                                               Damaged or stolen
                                                             Property costs
     Workplace Accidents                                     Productivity
     Employee Turnover

      In Fiscal Year 2007 and 2008, the outcome information was collected and
      analyzed to determine the effects that the implementation of a Drug Free
      Workplace program has on small businesses. It showed that after the
      implementation of a Drug Free Workplace program a small business saw a

I   While not required, ONDCP recommends agencies develop a graph to accompany information contained in the table.
                                                                                                                 5



      decrease in absenteeism, workplace accidents, employee turnover, damaged or
      stolen property and insurance premiums. Also, the small business saw an
      increase in productivity. Since this information was the first ever collected, it is
      possible that the results will not yield the expected outcomes long term.

      In FY 2009, after implementation of a drug free workplace program, the small
      businesses reported no increases in insurance premiums and damaged or stolen
      property. Additionally, there was a decrease in the categories of employee
      turnover, absenteeism, insurance premiums, damaged or stolen property and
      workplace accidents. Further, the results show that productivity increased as we
      expected.

(c) The goal for FY 2009 is lower because we have three new grantees who will
    need time to implement the program. The agency determines the goals based
    on the number of grantees and whether previous goals were reached.

(d) The agency depends on the honesty and integrity of the DFWP grantees to
    ensure performance data for this measure are accurate, complete, and unbiased
    in presentation and substance.


MEASURE 2: Number ofDFWPs Implemented

       Table 22
        FY 2007 Actual        FY 2008 Actual        FY 2009 Target          FY 2009 Actual


        453                  363                    165                   375


(a) Describe the measure. This measure reflects the number of small businesses
    that implemented a whole or partial Drug Free Workplace Program. A purpose
    of the program is to encourage as many small businesses as possible to
    implement a drug free workplace program for their business. If a business
    implements a DFWP program, it is believed that there will be a decrease in
    absenteeism, workplace accidents, tardiness, damaged or stolen property and
    insurance premiums. It is also believed that productivity and moral will
    increase. The information is collected directly from the grantees. The
    grantees input their data into a database created just for this program.

(b) The actual goal of 2009 was underestimated because the number of
    small businesses implementing a drug free workplace program varies
    widely from year to year due to the fact that the grantees cannot force a

2   While not required, ONDCP recommends agencies develop a graph to accompany information contained in the table.
                                                                                6



      small business to implement such a program. The grantee can only
      encourage the small business by showing the benefits of the
      implementation.

(c) The goal for FY 2010 is 200 which is slightly higher than in FY 2009 in hope
    that more small businesses will see the benefits of implementing a drug-free
    workplace program. The agency determines the goals based on the number of
    grantees and whether previous goals were reached.

(d) The agency depends on the honesty and integrity of the DFWP grantees to
    ensure performance data for this measure are accurate, complete, and unbiased
    in presentation and substance.


II.      RESOURCE SUMMARY
                                                           FY2009
                                                           Final BA
         Prevention and Education
         Drug Free Workplace Grants                        $IM

         Drug Resources Personnel Summary
         Total FTEs (direct only)                          o

         Information
         Total Agency Budget*                              $598,493
         Drug Percentage                                   0.170/0

         *Does not include Disaster Assistance Program or the Office ofthe
         Inspector General.

         GRANTEE                              DATE        PO AMOUNT
         !peer Assistance Services, Inc.          9/24/09    250,000.00
         !premier Integrity Solutions, Inc.       8/12/09    250,000.00
         !Drug Free Idaho                         9/22/09    186,576.00
         !River Region Human Services,            9/30/09
         ~nc.                                                250,000.00
         IWorker's Assistance Program             9/24/09     60,000.00
         Irotal                                              996,576.00


III. MANAGEMENT'S ASSERTIONS 

                                                                                    7



(1) Performance reporting system is appropriate and applied - The agency has
    a system to capture performance information accurately and that system was
    properly applied to generate the performance data.

(2) Explanations for not meeting performance targets are reasonable - Both
    goals were exceeded in FY 2009. However, it is difficult to predict the number
    of small business that will implement a DFWP program and the number of
    small businesses that will want education on a DFWP program since there is
    no legally binding rule requiring them to do so.

(3) Methodology to establish performance targets is reasonable and applied ­
    The methodology described above to establish performance targets for the
    current year is reasonable given past performance and available resources.

(4) 	Adequate performance measures exist for all significant drug control
   activities - The agency has established at least one acceptable performance
   measure for each Drug Control Decision Unit identified in reports required by
   section 6a(1 )(A) for which a significant amount of obligations ($1,000,000 or
   50 percent of the agency drug budget, whichever is less) were incurred in the
   previous fiscal year. Each performance measure considers the intended
   purpose of the National Drug Control Program activity.
